<html>
<title> - REBUILDING AMERICA: SMALL BUSINESS PERSPECTIVE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


             REBUILDING AMERICA: SMALL BUSINESS PERSPECTIVE

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             MARCH 6, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 116-007
             Available via the GPO Website: www.govinfo.gov
                   
                   
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-169                       WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cfa8bfa08facbabcbba7aaa3bfe1aca0a2e1">[email&#160;protected]</a>                                   
                   
                   
                  
                   
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     2

                               WITNESSES

Ms. Terri Williams, Director, SBDC Procurement Technical 
  Assistance Center, University of Texas at San Antonio, San 
  Antonio, TX....................................................     4
Mr. Tim Donovan, Senior Vice President, Legislative Affairs, 
  Competitive Carriers Association, Washington, DC...............     6
Ms. Roseline Bougher, President, A.D. Marble, King of Prussia, 
  PA, testifying on behalf of the American Council of Engineering 
  Companies......................................................     7
The Honorable Kris Knochelmann, Judge Executive, President, Ohio-
  Kentucky-Indiana Regional Council of Governments, Kenton 
  County, KY.....................................................     9

                                APPENDIX

Prepared Statements:
    Ms. Terri Williams, Director, SBDC Procurement Technical 
      Assistance Center, University of Texas at San Antonio, San 
      Antonio, TX................................................    32
    Mr. Tim Donovan, Senior Vice President, Legislative Affairs, 
      Competitive Carriers Association, Washington, DC...........    37
    Ms. Roseline Bougher, President, A.D. Marble, King of 
      Prussia, PA, testifying on behalf of the American Council 
      of Engineering Companies...................................    44
    The Honorable Kris Knochelmann, Judge Executive, President, 
      Ohio-Kentucky-Indiana Regional Council of Governments, 
      Kenton County, KY..........................................    49
    Hon. Jim Hagedorn, Member of Congress, Minnesota.............    52
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
             REBUILDING AMERICA: SMALL BUSINESS PERSPECTIVE

                              ----------                              


                        WEDNESDAY, MARCH 6, 2019

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:01 a.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Finkenauer, Kim, 
Davids, Golden, Veasey, Evans, Espaillat, Delgado, Houlahan, 
Craig, Chabot, Balderson, Hern, Hagedorn, Stauber, Stauber, 
Burchett, and Joyce.
    Chairwoman VELAZQUEZ. Good morning. The committee will come 
to order.
    I want to thank everyone for joining us this morning, and I 
want to especially thank the witnesses for being here today.
    I would like to welcome Ms. Angie Craig from Minnesota to 
our committee. Her experience as a small business investor and 
the former head of Global HR for a major Minnesota manufacturer 
brings a unique perspective to the issues important to Main 
Street businesses all over the nation. Welcome.
    Whether it is the ports we rely upon to transport our goods 
to the utility systems that power our factories, maintaining 
America's infrastructure is fundamental to a robust economy and 
to the nation's competitiveness.
    The topic of infrastructure is vast, encompassing networks 
of highways, bridges, and waterways that span thousands of 
miles across America.
    As a nation, we have a proud legacy of pushing the 
boundaries of innovation. Historically, America's robust 
infrastructure network has fostered strong economies and 
allowed us to be both competitive and efficient. Today, we have 
built telecommunications and broadband systems that connect us 
in a matter of seconds.
    However, by many measures we are failing to keep up with 
the growing demands of our modern society. Whether it is the 
high-speed internet connection that has not yet reached our 
rural communities to the outdated and crumbling tunnels that 
connect our cities, decades of neglect and lackluster 
investments have allowed our infrastructure to fall apart and 
fall behind other advanced economies.
    Let us be clear, this has all come at a cost to commerce 
and small businesses. That is why we must now address this 
issue head on. Today, we are here to think big about the 
countless ways in which our infrastructure impacts the small 
business sector.
    We know that investments in infrastructure promote future 
economic opportunities for American workers and small 
businesses. In fact, 61 percent of the jobs directly created by 
infrastructure spending would be in the construction sector, 12 
percent in the manufacturing sector, and 7 percent in retail 
trade. That is 80 percent in these three sectors alone.
    Most importantly, 90 percent of these jobs are good paying 
middle-class jobs, many of which are supported by our nation's 
small businesses. From construction to engineering to 
architecture, small businesses are critical to maintaining and 
expanding our infrastructure systems.
    And yet, we must level the playing field to ensure that any 
federal infrastructure plan includes opportunities for small 
business owners, and particularly for women- and minority-owned 
businesses.
    All of us have an obligation to ensure there is adequate 
federal infrastructure investment and guarantee our nation's 
long-term competitiveness in the global economy. Accordingly, a 
robust and well-planned investment in our infrastructure should 
benefit small businesses, both as end users of these networks 
and by creating business opportunities for them.
    It is my hope that today's discussion can help identify 
strategies for accomplishing that goal. With that, I thank each 
of the witnesses for joining us today and I look forward to 
your testimony.
    I would like to yield now to the Ranking Member, Mr. 
Chabot, for his opening statement.
    Mr. CHABOT. Thank you, Madam Chairwoman.
    During my tenure as both the Ranking Member now and in the 
past as Chair of this Committee, I know that we have heard from 
small businesses from all across the country in this very room 
about the importance of repairing our nation's infrastructure 
and how important it is to those small businesses and to many 
others across our country. And I am glad that we are continuing 
that conversation here today. So I commend you for doing that.
    This is an issue that stretches across every state and 
across every congressional district. I am willing to bet that 
ever member on this side of the aisle and on the other side of 
the aisle can think of at least one urgent infrastructure 
project in his or her district that they would love to have 
fixed today. I know that I can, and one of the witnesses here 
is going to be addressing that shortly.
    There are many important projects in Ohio, but one I can 
think about in particular is the Brent Spence Bridge. This 
bridge connects Ohio to Kentucky and carries an estimated 
172,000 vehicles on Interstates 71 and 75 every day, more than 
double its intended capacity. Today it is labeled functionally 
obsolete by the U.S. Department of Transportation.
    My district's challenge, however, is not unique. Currently, 
an estimated 20 percent of Federal roads provide poor ride 
quality, and 25 percent of our Nation's bridges are 
functionally obsolete as is the Brent Spence Bridge. On 
average, the typical American commuter loses 42 hours of 
valuable, productive time each year to traffic alone, so that 
is essentially an entire work week just sitting in traffic. 
Some districts obviously it is harder than others. If you are 
in Washington, D.C., or you are in New York, or probably a lot 
of districts in California, it is particularly bad, but it 
happens all over the country. I am sure the Chairwoman has 
experienced this a time or two in her home district in Brooklyn 
or Lower Manhattan. So we can all obviously relate to this.
    At this Committee, we have learned in past hearings another 
issue, broadband deployment, is also a crucial part of our 
nation's infrastructure, particularly for entrepreneurs in 
rural areas. I know that our colleague from Mississippi, Trent 
Kelly has brought that up to me a number of times. As business 
owners continue to move to a more global marketplace, access to 
broadband is crucial to keeping small businesses competitive. 
Unfortunately, too many small businesses still lack access to 
broadband internet service considered fast by the FCC.
    As with any major project, it is critical that small 
businesses are not left out of the conversation. With small 
businesses creating about 70 percent of the new jobs in the 
economy every year now, they will be a driving force in 
revitalizing our Nation's infrastructure system. We also must 
be sure to engage state and local governments. States and 
localities know the needs of their communities best, which is 
why any Federal legislation created by this Congress must 
empower local governments to be leaders in their communities.
    I look forward to hearing from our witness panel here 
today, if I ever stop talking, and their ideas for moving our 
Nation's infrastructure into the 21st century.
    So thank you, Madam Chair, for holding this hearing, and I 
yield back my time.
    Chairwoman VELAZQUEZ. Thank you, Mr. Chabot. The gentleman 
yields back.
    And if any committee members have an opening statement 
prepared, we would ask that they be submitted for the record.
    I would like to take a minute to explain the timing rules. 
Each witness gets 5 minutes to testify and the members get 5 
minutes for questioning. There is a lighting system to assist 
you. The green light will be on when you begin, and the yellow 
light comes on when you have 1 minute remaining. The red light 
comes on when you are out of time, and we ask that you stay 
within the timeframe to the best of your ability.
    I now would like to introduce our witnesses.
    Our first witness is Ms. Terri Williams. Ms. Williams 
serves as the Director of the University of Texas at San 
Antonio Institute for Economic Development Procurement 
Technical Assistance Center. As director, she provides 
direction, management, and oversight as part of the UTSA 
Institute for Economic Development. The program provides 
counseling, training, energy audits, and human resource 
sustainable business and other support services to small 
businesses. I welcome you.
    Our second witness is Mr. Tim Donovan. Tim Donovan is the 
Senior Vice President of Legislative Affairs for the 
Competitive Carriers Association, the nation's leading 
association for competitive wireless providers and stakeholders 
across the country. In this capacity he leads the association's 
legislative advocacy before policymakers on issues impacting 
the competitive wireless community, including roaming, 
universal service, spectrum policy, device availability, 
broadband policy, and others.
    Our third witness today is Ms. Roseline Bougher. Ms. 
Bougher is the president of A.D. Marble, a woman-founded, 
environmental and engineering firm based in Pennsylvania. Ms. 
Bougher is responsible for the functions and operations of the 
company, including marketing, budgeting, building and 
maintaining client relationships, and the development of 
employees. Raised in San Juan, Puerto Rico, Roseline went on to 
attend Cornell University and NOVA Southeastern University in 
Fort Lauderdale. Welcome.
    And now I yield to our Ranking Member, Mr. Chabot, to 
introduce our final witness.
    Mr. CHABOT. Thank you, Madam Chair.
    Our final witness today is The Honorable Kris Knochelmann, 
Judge Executive for Kenton County, Kentucky, which is just 
across the Ohio River, which is actually, by the way, mostly 
owned by Kentucky. And he is in the Northern Kentucky area. 
Judge Knochelmann also serves as the President of OKI, the Ohio 
Kentucky Indiana Regional Council of Governments, the 
organization that oversees all federal dollars spent on 
infrastructure in our region. He and his wife are also the 
owners of Schneller Plumbing, Heating, and Air, a small 
business founded all the way back in 1928. And we thank you for 
testifying today.
    Chairwoman VELAZQUEZ. Ms. Williams, you are recognized for 
5 minutes.

   STATEMENTS OF TERRI WILLIAMS, DIRECTOR, SBDC PROCUREMENT 
     TECHNICAL ASSISTANCE CENTER; TIM DONOVAN, SENIOR VICE 
     PRESIDENT, LEGISLATIVE AFFAIRS, COMPETITIVE CARRIERS 
  ASSOCIATION; ROSELINE BOUGHER, PRESIDENT, A.D. MARBLE; KRIS 
 KNOCHELMANN, JUDGE EXECUTIVE PRESIDENT, OHIO-KENTUCKY-INDIANA 
                REGIONAL COUNCIL OF GOVERNMENTS

                  STATEMENT OF TERRI WILLIAMS

    Ms. WILLIAMS. Thank you so much.
    Chairwoman Velazquez, Ranking Member Chabot, members of the 
Committee, good morning.
    I have already been introduced, so I am going to in essence 
try to stick to my time.
    Over the past 30 years, I have been involved in listening 
to the needs of small business owners and providing solutions. 
Today, key issues have been identified as infrastructure, 
broadband, cybersecurity, government contracting opportunities, 
and access to capital. My testimony is focused on these issues 
and some anecdotes of small business owners who continue to 
struggle toward success.
    Small businesses continue to be the driving force of our 
Nation's economy. According to the most recent SBA Small 
Business Profile of 2018, 30.2 million businesses meet the 
definition of small, which accounts for 99.9 percent of all 
U.S. businesses. They also employ 58.9 million people, which 
accounts for 47.5 percent of total employees and are 
responsible for creating 1.9 million net new jobs. Small 
businesses also hire 43 percent of all workers in the high-tech 
sector, and produce 13 times as many patents per employee as 
large firms in high-tech industries. However, this cannot 
continue to be sustained or increased without investment in 
infrastructure to help small businesses be competitive with 
their counterparts.
    Broadband has become an essential tool for doing business. 
It is important for connecting with customers, working with 
suppliers, enabling remote access to employees, and improving 
operations. It is a critical component in competing locally and 
globally. According to a report of the State Broadband 
Initiative of New Jersey, in order for small businesses to 
adopt broadband, three areas have to be considered--
availability, affordability, and adoption.
    Availability must consider two important factors: Is the 
infrastructure to deliver broadband available and accessible at 
their location? Does the available broadband meet the security 
needs of the small business?
    And then affordability must consider is there a need for 
upgrading the infrastructure or expanding it to the location? 
Is it affordable? Can the small business afford the technology, 
devices, equipment, applications needed to adopt the use of 
broadband into their operation and business? And can they 
afford to train or hire new staff for implementation?
    Finally, adoption considers knowledge and how to adopt it 
into their business, effectively integrating it into their 
operations, and realizing the benefits. For many businesses in 
rural areas of the country, broadband is not an option which 
leaves them unable to comply with electronic submissions to 
register their business, submit a bid or proposal, receive 
payments, or meet data security requirements.
    In an effort to address national security issues, the DoD 
has identified a need to increase the number of businesses who 
are resilient and compliant with cybersecurity requirements and 
decrease the vulnerability of the supply chain. Requirements 
are now included in many DoD acquisition documents for 
businesses to have a system security plan consistent with the 
National Institute of Standards and Technology (NIST). Unless 
small business owners are equipped with human and financial 
resources to comply with these standards, they will be left 
behind in the Federal contracting market.
    In an effort to respond to this need, USTA has developed a 
Small Business Cybersecurity Training Academy for the purpose 
of helping small businesses develop a system security plan. 
However, this training does not provide relief to cover any 
necessary costs for equipment upgrades. As a result, small 
businesses are limited in government contracting as a primary 
contractor or vendor, as well as a subcontractor.
    Over the past 30 years, Federal, state, and local 
government agencies have strategized at the request of small 
business owners to provide information and assistance in 
responding to requests for government contracting bids and 
proposals.
    The remainder of my testimony speaks to access to capital 
as well, and we know that the support of small business 
financing mechanisms that relax total dependence on high credit 
scores and lowers interest rates will help businesses be more 
competitive and infuse money back into their business.
    So thank you for the opportunity to share this information, 
and I will be glad to answer any questions you may have.
    Chairwoman VELAZQUEZ. Thank you, Ms. Williams.
    Mr. Donovan, you are now recognized for 5 minutes.

                    STATEMENT OF TIM DONOVAN

    Mr. DONOVAN. Chairwoman Velazquez, Ranking Member Chabot, 
and members of the Committee, thank you for the opportunity to 
testify about the importance of broadband connectivity as 
Congress continues its work to revitalize our Nation's 
infrastructure.
    CCA is the Nation's leading association for competitive 
wireless providers, representing nearly 100 carrier members, as 
well as vendors and suppliers. The vast majority of CCA members 
are small businesses or work closely with them. They invest in 
their hometowns, not only through providing wireless service, 
but also by employing their neighbors, sponsoring local events 
and hometown teams, and hosting community service events.
    Robust broadband networks are vital infrastructure for the 
21st century, particularly for small businesses and the 
consumers they serve. These businesses rely on connectivity to 
provide a digital storefront to reach customers in their 
communities and around the world. In addition to connecting 
with consumers, wireless services revolutionize how entire 
industries operate. From telehealth to precision agriculture, 
distance learning and the internet of things, these and other 
services are economic multipliers and job creators that depend 
on reliable broadband coverage.
    While critical for today's mobile economy, the potential 
benefits and capabilities of next-generation and 5G networks 
will supercharge existing services and enable new technologies. 
The possibility of a fully connected world is both 
groundbreaking and exciting.
    But this generational leap of technology and the very 
existence of 5G is not inevitable, particularly in rural 
America. While 5G buzz grabs headlines, too many rural areas 
and small businesses remain on the wrong side of a persistent 
digital divide. Decisions made by policymakers today can either 
launch innovation and economic growth or exacerbate 
insufficient access, leaving rural America behind. Small 
businesses depend on policies that preserve and expand wireless 
services.
    To determine whether services are available, Congress must 
have reliable coverage maps. Unfortunately, based on your own 
experiences, member of this Committee know that coverage is 
frequently overstated, leaving consumers frustrated and small 
businesses lacking connectivity. This is a cornerstone issue 
which must be addressed.
    In addition to developing reliable data, Congress should 
act on three key policy issues: funding, spectrum, and 
deployment challenges. First, additional funding will preserve 
and expand wireless broadband coverage. CCA commends the FCC 
for making support available through the Mobility Fund Phase II 
program. However, additional resources are necessary to ensure 
that rural areas have access to reasonably comparable services 
as those provided in urban areas.
    As Congress considers legislation to rebuild America's 
infrastructure, CCA strongly supports employing all policy 
options to advance deployment, including providing direct 
funding to build broadband infrastructure where private capital 
alone is not sufficient to support a business case for service.
    Next, Spectrum is the invisible infrastructure for wireless 
service and the lifeblood of our industry. All carriers must 
have access to spectrum at low-, mid-, and high-frequency bands 
to provide the services their customers depend on and the 
capacity necessary to support innovative applications. As small 
businesses increasingly rely on wireless broadband connections, 
the demand for additional spectrum resources grows 
exponentially.
    Finally, carriers must have certainty regarding the costs 
and time necessary to deploy towers, small cells, and the fiber 
required to backhaul tremendous amounts of data. Wireless 
services depend on this physical infrastructure. Smart policies 
to deploy, maintain, and upgrade these networks, are key 
components to both closing the digital divide and completing 
the generational upgrade to 5G.
    While Congress and the FCC have taken important steps to 
streamline siting approval and permitting processes, additional 
work remains. It is important to underscore that these reforms 
need not pit wireless carriers against the municipalities and 
the states that they serve. Smart policies can create a win-win 
scenario that saves resources by eliminating unnecessary 
reviews for both carriers willing to invest in network 
deployments, as well as state and local government agencies 
seeking to upgrade services for their constituencies.
    Modern wireless services will revolutionize how small 
businesses connect with their customers, while creating new 
jobs and allowing anyone to work from wherever there is a 
broadband connection. The services enabled by wireless 
broadband would not long ago be considered science fiction, but 
today's networks are making them a reality, improving 
opportunities for small businesses, and reducing their costs. 
5G services promises an immediate and expansive impact on the 
lives of all Americans, but absent smart and swift action from 
policymakers to close the digital divide, those in rural areas 
will be sidelined from a connected future.
    I appreciate this Committee's attention to ensuring that 
all small businesses have the national infrastructure in place 
to survive and thrive, and reliable broadband is an 
increasingly important component to achieving this goal.
    Thank you for holding today's important hearing, and I 
welcome any questions you may have.
    Chairwoman VELAZQUEZ. Thank you very much. I really 
appreciate that you are kindly sticking to the 5 minutes. Thank 
you, Mr. Donovan.
    And now Ms. Bougher, you are recognized for 5 minutes.

                 STATEMENT OF ROSELINE BOUGHER

    Ms. BOUGHER. Thank you, Chairwoman Velazquez, Ranking 
Member Chabot, and members of the Committee.
    I appreciate the opportunity to testify before you today. 
As Chairwoman Velazquez indicated, I am the president and CEO 
of A.D. Marble, an environmental and engineering firm with 50 
employees across four offices in Pennsylvania and Maryland. Our 
headquarters are located in King of Prussia just outside 
Congresswoman Houlahan's district.
    Our firm conducts natural resources, cultural resources, 
and engineering, environmental engineering services on a range 
of transportation, water, and site development projects. Our 
environmental services focus on the completion of NEPA 
clearances and the environmental permitting process.
    I am here on behalf of the American Council of Engineering 
Companies (ACEC), the business association of the Nation's 
engineering industry. ACEC is a national federation of state 
and regional organizations representing more than 5,600 
engineering firms and 600,000 engineers, surveyors, architects, 
and other specialists nationwide. Nearly three-fourths of ACEC 
members' firms are small businesses.
    This is a timely hearing because we believe Congress has a 
unique opportunity this year to pass major infrastructure 
legislation to modernize the Nation's transportation, water, 
energy, and communications networks. Federal infrastructure 
programs are essential to small businesses. Most importantly, 
they provide resources in partnership with state and local 
governments who are directly responsible for maintaining and 
improving infrastructure systems.
    These public agencies are a primary market for small 
engineering firms. For example, approximately 85 percent of my 
company's work comes from transportation clients in the state 
of Pennsylvania, Maryland, and Delaware. State and local 
agencies rely on consistent, multi-year Federal funding in 
order to plan and implement their projects. Without this 
funding, they can only undertake the most basic maintenance and 
short-term fixes and cannot effectively implement a long-range 
improvement plan that would unlock business opportunities for 
small firms.
    Although it is not in the jurisdiction of this Committee, I 
would be remiss if I did not specifically mention the need to 
restore long-term solvency to the Highway Trust Fund. The user 
fees were last raised in 1993, and have lost over 40 percent of 
its purchasing power. More than $140 billion has been 
transferred from the General Fund into the Highway Trust Fund 
since 2008 because of the failure to address systemic funding 
shortfalls with real revenue solutions. It is time for Congress 
to provide new sustainable revenue for service transportation 
programs.
    Another advantage of infrastructure investment is that 
Federal funds are directly invested in physical assets that 
create a lasting benefit for the public and spur additional 
economic growth. In addition to the construction activities 
that provide local businesses with direct contracting 
opportunities, the flow down effect helps bolster other 
economic activity as well, such as service industry, retail, 
and manufacturing among others.
    Conversely, as a small business leader and owner, I have 
seen how challenging the lack of infrastructure funding can be 
to our industry. It is more difficult for my firm to retain 
employees if there is no work available. We cannot afford to 
keep employees that cannot bill to projects even when the lull 
may be short term. When there is no work, we must make quick 
and difficult decisions when it comes to personnel. This is a 
problem that affects engineering firms of all sizes but is 
particularly problematic for the smaller specialty firms like 
mine that lack the resources and markets that enable larger 
firms to keep their employees busy.
    Lastly, on the issue of workforce development, I think it 
is important to note that we do not have enough engineers in 
this country. According to the most recent quarterly ACEC 
survey of company executives, more than one-third pointed to 
the lack of engineering talent as the greatest threat to their 
firm's success. As experienced senior staff are retiring at a 
rapid pace, we are not backfilling that gap with enough 
graduates in engineering. Firms of all sizes are fighting to 
attract and retain experienced engineers.
    This national workforce challenge does not have a silver 
bullet solution. It involves a multi-faceted strategy, 
including improvements in K-12 STEM education, incentives for 
engineering students at the collegiate level, as well as worker 
retraining initiatives and increasing the number of employment-
based visas for high-skilled workers.
    On behalf of ACEC and the Nation's engineering industry, I 
want to thank this Committee once again for focusing attention 
on this important issue.
    I would be happy to answer any questions.
    Chairwoman VELAZQUEZ. Thank you, Ms. Bougher.
    And Mr. Knochelmann, you are recognized for 5 minutes. 
Welcome.

          STATEMENT OF THE HONORABLE KRIS KNOCHELMANN

    Mr. KNOCHELMANN. Thank you, Madam Chairwoman and Committee 
members.
    Good morning. As noted before, my name is Kris Knochelmann. 
I am a Kenton County, Kentucky judge executive and president of 
the OKI, the Ohio Kentucky Indiana Regional Council of 
Governments, an 180-member board. It is an honor to appear 
before you to discuss the vital importance of reliable 
transportation infrastructure on all businesses, particularly 
small business.
    I am a small business owner. As you heard, our family 
business was started in 1928. My wife and I, by the way, with 
help of an SBA loan, acquired it in 2011, and by the grace of 
God, creative work of our team, our business growth has now 
gone to over 64 employees. We are located in greater Cincinnati 
with offices in Cincinnati, or in Ohio and in Kentucky.
    All of us live in a global economy with trillions of 
transactions in millions of markets, driving commerce in every 
corner of the world. However, any accurate reading of data will 
show that almost all economies, and certain the United States' 
economy, is driven by small business. In the United States, 
small business is the growth engine for jobs and critical to 
our place on the world economic stage. You know this. Small 
business encompasses 99.7 percent of United States employer 
firms; half of all employment; 60 percent of all new jobs; 98 
percent of all exporting firms; and 46 percent of private 
sector output. And the list goes on.
    As competitors in the world economy, all businesses, 
particularly small businesses, need to get their products to 
their customers in the most efficient way possible. The 
transmission of goods is dependent on adequate transportation 
infrastructure, particularly sound, effective roads, and 
bridges. Alarmingly, our country's transportation 
infrastructure is in such poor condition that it is stifling 
our economy.
    The facts are frightful. And again, you know, this. Over 
70,000 bridges are structurally deficient; 40 percent of the 
urban roads are congested. We waste $160 billion due to 
congestion every year. And, the problem is not just economic; 
30 percent of all accidents are the result of poor road 
conditions, and highway deaths in this country have risen to 
over 40,000 per year. The country's infrastructure network 
problem is so large, it is estimated it would take a trillion 
dollars just to bring it up to standard.
    While the burden of our deteriorating infrastructure 
affects all businesses and their employees, it falls most 
heavily on small businesses. Small businesses, like mine, are 
least able to absorb the impacts of road delays on fuel costs 
and wasted time.
    Small businesses, almost by definition, are closer to their 
customers than larger companies. The currency of small business 
is not only the American dollar but the trust I must have with 
my customers who live on our streets, in our communities, in my 
neighborhood, and around my region. If our employees are stuck 
in traffic and cannot be on time for appointments, my customers 
can easily find my competitors by pressing a button on their 
cell phones and getting them out there if they are down the 
street. If my fuel costs and other costs rise because of wasted 
time in traffic, I cannot just pass them on to unknown 
stockholders. My employees, my wife, and I bear the brunt of 
lost dollars due to poor infrastructure that we cannot reinvest 
in our community.
    In my part of the country, we have one of the Nation's most 
critically needed infrastructure projects, the Brent Spence 
Bridge. Maybe you have heard of it.
    The Brent Spence Bridge does cross the Ohio River at 
Cincinnati into my home county in Kentucky. However, it also 
connects Michigan to Miami and other points north to south 
because it is the lynchpin of the I-75 and I-71 trade 
corridors. The bridge was constructed to carry 80,000 vehicles 
a day, and now carries over 160,000 vehicles a day. And I can 
see them from my office. It was engineered over 50 years ago to 
handle 3,000 trucks per day and now carries over 30,000 trucks 
per day.
    Years ago, the safety side lanes were moved, making a 
simple lane change a dangerous maneuver, and the cost of 
congestion caused by the bridge is approaching a billion 
dollars a year. The value of the Brent Spence Bridge to our 
Nation and to our region is obvious because over this bridge a 
billion of freight passes every day. The Brent Spence Bridge is 
the poster child of the aging and inadequate infrastructure in 
our country and Federal and state officials have been there 
regularly to use it as a backdrop to know that we have to make 
a change.
    I would like to thank Congressman Chabot especially for all 
he has done over the years to put the needs of the Brent Spence 
Bridge front and center in front of Congress.
    And if you look at the traffic on the Brent Spence Bridge, 
you will not only see hundreds of semitrailers, but you will 
see thousands of panel trucks and services vehicles just like 
mine. Every day, those small trucks carrying so much of our 
region's and Nation's economy fight thousands of hours of delay 
to get to our customers.
    I thank this Committee's work on working on behalf of small 
business, and I want to let you know that I am here ready to 
help you in any way possible in the future. Thank you so much.
    Chairwoman VELAZQUEZ. Thank you. We really appreciate all 
you have to share with us today.
    I am going to recognize myself for 5 minutes. And I would 
like to start with Mr. Donovan.
    For carriers both large and small, buildout in rural areas 
is often prohibitively expensive. What can be done to help 
carriers remain competitive in this area of doing possible 
infrastructure expansion?
    Mr. DONOVAN. Thank you for that question, Chairwoman.
    You are correct. In some places, after 30 years of building 
wireless networks, places that still are not served are likely 
because there is not a business case to build out those 
networks with private capital alone. The FCC does have the 
Universal Service Fund to provide some assistance, but that is 
not enough to close the size of the gap that we have. As you 
continue to work on an infrastructure package, we would 
strongly urge you to include dedicated funding to make sure 
that we can close the digital divide.
    Chairwoman VELAZQUEZ. Other than costs that you discussed 
with us this morning, what are the largest barriers to rural 
broadband competition and access?
    Mr. DONOVAN. So there are additional factors other than 
direct spending that can make builds more expensive or take 
more time. That includes the permitting process, moving through 
that, access to Federal lands is particularly important in 
rural areas as so much of rural areas is Federal lands. And so 
working with the relevant agencies to get approval so that 
carriers can have the confidence and the certainty to put their 
capital to work to build out these networks.
    Chairwoman VELAZQUEZ. Thank you.
    Ms. Williams, as agencies continue to identify and 
prioritize cyber standards, it is very likely more procurement 
obligations will be implemented because the energy grid is 
related to our nation's infrastructure and also vulnerable to 
cyberattacks. What can we do to ensure small contractors are 
best situated to evolve to new cybersecurity guidelines?
    Ms. WILLIAMS. Thank you for that question.
    I think the best thing we can do is to keep conducting 
specific training events, outreach evenings, continue that one-
on-one guidance for them because a lot of the perception is 
that they have to invest enormous amounts of financing and 
monies to get their systems secure. But not knowing or not 
having all of the information of things that they can do as far 
as training their employees, having adequate processes in place 
that they can do themselves is critical to them in complying 
with the requirements.
    Chairwoman VELAZQUEZ. Do you feel that the Small Business 
Administration is doing enough in the area of education and 
providing information to small businesses so that we empower 
them with the information they need?
    Ms. WILLIAMS. I think they have been doing a lot in 
providing specific webinars or specific, some training events. 
But again, what I have been finding is that the small 
businesses really need a lot of hand holding and that is where 
specific areas can help with that.
    Chairwoman VELAZQUEZ. Thank you.
    Ms. Bougher, energy and infrastructure are inherently 
linked together and existing electricity infrastructure is 
aging rapidly. Inarguably, the United States' energy problems 
are largely rooted in its crumbling infrastructure. An influx 
of investment must be considered in order to prevent additional 
weather events from exacerbating its delicate state as we saw 
in Puerto Rico after Hurricane Maria. What steps can we take 
now to modernize our energy grid and how can that further the 
growth of the small business sector?
    Ms. BOUGHER. Thank you, Chairwoman.
    I think it goes back to infrastructure and how are we 
utilizing the right modern, up-to-date, latest innovation? Are 
we really thinking ahead to try to create an infrastructure 
that can prevent or at least reduce a level of impact that 
these mostly, for the most part, natural disasters are 
bringing? There is very little we can do to control that and to 
control the intensity, but there is a lot more that we can do 
to create infrastructure systems that can withstand, if not 
reduce the level of impact.
    Chairwoman VELAZQUEZ. Thank you. My time has expired, we 
will do a second round and Mr. Knochelmann, my first question 
will be to you.
    Now I recognize the Ranking Member for 5 minutes.
    Mr. CHABOT. Thank you, Madam Chair.
    Judge Knochelmann, I will go with you to begin with. And 
not surprisingly, I think I will talk about the Brent Spence 
Bridge.
    Mr. KNOCHELMANN. Sure.
    Mr. CHABOT. Could you, and we have talked about that. We 
have worked on it for a long time. And when I say ``we,'' I 
mean all levels of government. I think we have gotten $53 
million so far. Most of that has gone into engineering studies, 
EPA studies, and kind of the preparations for it. But could you 
remind us again, and this not only affects the folks obviously 
in my district and the greater Cincinnati area, and all the way 
up to Michigan and probably into Canada as well, but also the 
folks on the other side of the Ohio River in Kentucky where you 
are at, but all the way down to Florida. Could you remind us 
what actually replacing the bridge, what the direct and 
indirect impacts would be to the communities in our area? And 
then if you want to touch on small businesses as well, how it 
would affect them since we are the Small Business Committee.
    Mr. KNOCHELMANN. Sure. Well, and I think one important 
note, we think about this bridge in our region as being the 
replacement bridge. I think it is important for everyone to 
remember the existing plan, the design that has been done is to 
actually keep the existing bridge, not waste it, refurbish it, 
and add a companion bridge next to it. So the good news is past 
dollars of decades ago would not be wasted; they are just 
improved.
    And then the access through that entire region, which is 
the project is estimated to be a $2.5 billion project today, 
but it would actually include about a 15 to 20 mile swath of 
expressway that also needs to be expanded though that 
community, which obviously ties in one of our key airports, CVG 
in Cincinnati, which happens to be in Kentucky. Amazon Prime 
has just relocated or is going to be growing a $1.5 billion 
project there for their regional----
    Mr. CHABOT. And just to clarify that, we are not talking 
about taking away Ms. Velazquez's New York project.
    Mr. KNOCHELMANN. No, absolutely not. This was well before--
--
    Mr. CHABOT. Yeah, okay. I would not want to upset the Chair 
now since she is Chair now.
    Mr. KNOCHELMANN. But Amazon has announced a large expansion 
at our airport in Cincinnati. And so we are talking about major 
infrastructure, national importance to get product and 
services, as well as the wonderful thing about what is 
happening with the project is small businesses are there to 
serve them. So we have small carriers in our area who are 
actually serving the future Amazon prime with their own freight 
businesses. So we see that impact. We see the economic impact. 
We see the improvement opportunity that infrastructure can make 
into the cities and the counties and the community, as well as 
the quality of life that we see improving just because people 
are able to get connected across the state. So it is needed. 
And of course, our hope is that we never see an issue where, 
like Minneapolis where we have something catastrophic happen. 
We would rather be proactive.
    Mr. CHABOT. Thank you very much. And just to conclude, one 
thing I wanted to mention, I am sure you are aware of this, 
we--and when I say ``we'' again, not just myself, other members 
here on both sides of the aisle--have been successful in 
getting something called Projects of National and Regional 
Significance into the previous transportation bill. So there is 
an access, there is a pot of money there waiting. It will not 
fund the whole thing but a significant part of it. But the 
local communities, obviously, and Ohio and Kentucky have to 
determine how they are going to come up with a local part of 
the funding. And that has kind of been the challenge in recent 
years. Thank you very much.
    Ms. Williams, let me turn to you. Could you elaborate on 
the challenges, and we have talked about this in this Committee 
a lot over the years, that small businesses face that comes 
from the cybersecurity threat and what kind of impact there can 
be on a small business if they are successfully hacked?
    Ms. WILLIAMS. So we have had, well, when I say ``we,'' UTSA 
and our Procurement Technical Assistance Center office services 
many small businesses. A lot of times they do not come to us as 
a resource until they have been hacked. And that is when they 
will come to the trainer or come to the classes and they will 
talk about the impact of them being hacked and losing all of 
their customer information. Or making their customers 
vulnerable to having their information out there and stolen. At 
some point, or at one point they literally will have to shut 
down their business because all of their records have been 
compromised. So it is a great impact when they have been 
hacked.
    Mr. CHABOT. Thank you. My time is about ready to expire, 
and I would just note that I know we have heard testimony that 
there is a pretty high percentage of small businesses that 
literally go out of businesses after a hack. They just cannot 
survive. So it can be a very serious and devastating event. And 
I yield back. Thank you.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    And now I recognize Ms. Finkenauer, Chairwoman of the 
Subcommittee on Rural Development, Agriculture, Trade, and 
Entrepreneurship for 5 minutes.
    Ms. FINKENAUER. Thank you, Madam. I always do that. Thank 
you, Madam Chair. And thank you to our guests here today as 
well. I really appreciate you being here and talking about this 
very important topic.
    I get very excited talking about transportation 
infrastructure. I also, besides having the honor to sit on the 
Small Business Committee, I sit on the Transportation 
Infrastructure Committee as well, where March is going to be 
infrastructure month. So I am very hopeful we can actually 
start moving forward here and it is incredibly important that 
we do. I am from Iowa. We actually have the most structurally 
deficient bridges in the entire country. On top of that, we 
rank number 39 in broadband connectivity, which is a problem 
when I am from Iowa and our agriculture economy, our farmers 
are relying on cloud-based services and the internet to be able 
to use precision ag the way that they need to to be able to 
save money and, you know, again, be able to do what they need 
to do in the field.
    Along with that, we are also desperately trying to grow 
rural American and a big part of that is making sure that we 
have broadband in all parts of my state. And so this is 
something, again, I am really excited to talk about. And Mr. 
Donovan, I know this is really kind of your wheelhouse as well. 
And I want to know, you know, I have been having a lot of 
conversations about this lately, and we all know there are 
areas of our country where we desperately need broadband. We 
need to expand it. But for example, I just had the National 
Association of County Administrators in the other day and one 
of their things is, you know, well, we know we need it. We do 
not always know exactly where because of the FCC data. And so 
one of the things they have been doing, you know, there was 
somebody who had an app showing, you know, depending on where 
you are at in the county you can use your app and that data 
will go in and you can see what your connectivity is and your 
download speeds, which is creative and a good idea. But what 
more do we need to be doing, especially on the Federal level 
here to make sure that we have the data we need to know where 
we need to be expanding?
    I know one of the things I am working on right now is a 
bill that would address some of these issues, but I want to 
make sure we are doing everything the right way, and wondering 
if you have any suggestions about what we should be looking at 
to make sure, again, we know exactly where we need to be 
investing.
    Mr. DONOVAN. Thank you. It is such an important part of the 
discussion, especially as these maps and what the coverage 
should have is going to determine where any funding is going to 
go, to build it out. For the Mobility Fund USF, we have 
overstated coverage that is going to determine where $4.5 
billion gets invested. In December, the FCC had a different 
report that claimed that approximately 100 percent of the 
population lives in geography with 4G coverage. We have got to 
do better than that, and it needs to be more--it should be 
dependent on collecting better data at the FCC and the Federal 
level, instead of relying on local administrators pushing a 
button on an app to prove where they do or do not have service. 
It should not be offloaded onto industry and state and local 
governments to prove the negative. We need to tighten up those 
standards and make sure we are starting with reliable data.
    Ms. FINKENAUER. Great. Thank you.
    And this one just to shift gears a little bit, Ms. 
Williams, I am happy to have you here as well. And one of the 
things I get really excited about as well is making sure, 
again, that rural America has more opportunities, and that 
means getting to compete for government contracts. And so that 
was actually my first bill in the House, was making sure that 
the Small Business Administration and the procurement officers 
were working with small businesses to be able to compete for 
government contracts and research grants, which is great. But 
when we are looking right now at an infrastructure package that 
will be, hopefully again getting done here, how do we make sure 
that our small businesses are able to compete for those? And is 
there anything else we should be doing to look out for that to 
again make sure they are able to get these contracts?
    Ms. WILLIAMS. Thank you. Great question.
    I think a lot of I has to do with information. With making 
sure that they understand the resources that are out there that 
are available. A lot of times we have businesses that come to 
us after they have already paid a consultant to do something 
that is already being paid for through the Federal government, 
through the SBA, through the Department of Defense. And being 
paid for in the form of having advisors and counselors 
available to help them navigate through the process. SBA has, 
or the Federal Government has contracting goals. Six out of 10 
of those goals consistently are met, but women-owned 
businesses, that goal continues to be lacking. HUB-zone 
business goals, that continues to be lacking. So making sure 
they have information is very, very important.
    Ms. FINKENAUER. Thank you. I appreciate that.
    Chairwoman VELAZQUEZ. The gentlelady's time has expired.
    Ms. FINKENAUER. I yield back.
    Chairwoman VELAZQUEZ. And now we recognize the gentleman 
from Ohio, Mr. Balderson, Ranking Member of the Subcommittee on 
Innovation and Workforce Development, for 5 minutes.
    Mr. BALDERSON. Like my colleague, I forget the microphone, 
too. So I apologize.
    Mr. Knochelmann, good morning. And thank you for being here 
and for representing my state of Ohio, too, with Congressman 
Chabot. I also sit on the Transportation Infrastructure 
Committee, and I can personally attest to the infrastructure 
issues that we are dealing with in Ohio. And right now Governor 
DeWine has just proposed, and they are doing the budget, the 
transportation budget work there now as we see what is going on 
there.
    I have had a chance to learn the opportunities that are out 
there on a national level and what infrastructure is facing. 
And I, like my colleague, agree that, you know, we need to 
address this issue. And that is one of the main reasons I went 
on this Committee because I think it is something that we can 
do.
    What can Congress do to help small business owners overcome 
some of these transportation issues that you referred to with 
your company?
    Mr. KNOCHELMANN. Sure. Thank you, Congressman.
    I think maybe one of the key factors, I think, is to really 
be able to listen and know that small businesses are willing to 
make an investment in infrastructure. That we not expecting and 
do not look to the state or the Federal Government to take care 
of even state and Federal roads. We know that our businesses 
generate those dollars that you are so good about making sure 
you dispense across the country. So I think one of the big 
topics, as you referred to, is Governor DeWine's talking about 
bringing up a gas tax. And I can tell you, I will speak for 
myself as a business owner with literally 50 trucks on the road 
every day, I am happy to invest in a gas tax that goes to roads 
and bridges. I know that most, if not a super majority of my 
friends and colleagues in my industry, those who have 50 trucks 
or semis, et cetera, they say the same thing. As long as it is 
not diverted, we want to make sure it goes into concrete, 
blacktop, bridges, et cetera, to make sure that it moves our 
economy forward. I think that that is a message that needs to 
be heard loud and clear because I do not think that 
infrastructure is partisan. You know, we all want them, and we 
all know we have to pay for it. And I think that as long as it 
is a partnership, and when I think across the levels of 
government, as well as among the states and your governor and 
our governor in Kentucky have been, I think, working very 
professionally about how to present that to the public in a way 
that is--and the business community. So I think just listen.
    Mr. BALDERSON. Thank you very much.
    My next question is for Mr. Donovan. And thank you for 
being here.
    We know about broadband. We have been talking about it for 
a long time. I came into the state legislature in 2008. They 
were talking about broadband and lack of. My former Senate 
district is very rural, Appalachia region. And it is a weekly 
occurrence of, you know, not having access to small business 
owners in those rural communities. So having been talking about 
it since even before 2008, I mean, what can Congress do to 
deploy this and get some, you know, faster action? I mean, you 
talked about some of the regulatory processes that we have to 
go through and the permitting issues, and mostly the national 
lands. Those are some things that we do not have to deal with 
in the region of the state that we are lacking. It is mostly 
the terrain and the hills. And I just did not know if there was 
anything out there that you could suggest to us that we can do 
to deploy that a little bit quicker.
    Mr. DONOVAN. Thank you. The cost to deploy goes up 
tremendously when you are going through mountainous areas and 
rough terrain. One thing that there have been efforts 
previously is to push that in programs like the Universal 
Service Fund, to include a terrain factor so that if you are 
having--flat prairie lands are not competing for the same 
dollars against mountainous terrain so that you can have some 
sort of bid credit or balance that out to compete on a level 
playing field there. Additionally, continuing to push for 
additional spectrum to be available for wireless carriers to 
deploy. I talked in my opening statement about low-, mid-, and 
high-band frequencies. Low band frequencies, actually, they 
penetrate through obstructions and cover longer distances so 
particularly in rural areas using those signals can help you 
serve a greater area off of the same tower. Currently, the FCC 
is working on, at Congress's direction, we reallocated some 
spectrum frequencies from broadcasters, reimbursed them, and 
are using that now for wireless carrier service. That repack 
process is ongoing. Once that is complete, these low band 
spectrum will be put to use and can tremendously help expand 
service availability in rural areas.
    Mr. BALDERSON. Okay. Thank you very much.
    Madam Chair, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    And now we recognize Ms. Davis, congress member from 
Kansas.
    Ms. DAVIS. From the great state of Kansas.
    Thank you, Chairwoman. And I appreciate you calling this 
hearing today. I also sit on the small business committee and 
the transportation and infrastructure Committee. And so because 
of that I am becoming that much more aware of the interplay and 
the need to invest in kind of these core infrastructure issues 
in our communities. You know, the Kansas City Metro area, and 
my district includes Overland Park, Kansas, and Olathe, and 
Lenexa. We have got a ton of businesses that are very dependent 
on things like broadband. We are also seeking to expand our 
reach into things like transit and that sort of thing. And all 
of these things are playing in together. You know, our area was 
the first google fiber city in the country, and Ride KC is our 
transit. You know, we have got this awesome thing going on. It 
has got Wi-Fi on it. So we are trying to figure out ways to 
make sure that when we are doing one thing we are also 
addressing another, like internet access.
    So when I think about how we build infrastructure that will 
be good for us and for our grandchildren, certainly, broadband 
is at the top of mine. And so Mr. Donovan, you said a couple of 
things earlier that I thought were really interesting. And 
obviously, broadband is a vital, economic driver. And there are 
lots of small firms, and you mentioned the number of smaller 
carriers you have. And that there are not just monetary but 
regulatory barriers. And specifically, you said that there were 
unnecessary reviews. I am curious what you mean by that. And 
then I want to do a follow up about tightening up 
accountability which you also mentioned. You know, I guess I 
would love to hear about both of those two things.
    Mr. DONOVAN. Sure. Thank you.
    So in terms of the reviews, when we're looking at that, the 
FCC is working on modernizing some of their review processes. 
But you don't need to go through the same review for a small 
cell the size of a backpack that goes up in an afternoon, as a 
200-foot tower that you are building along the side of a 
highway.
    Ms. DAVIS. And right now that review process is the same 
for a lot of carriers?
    Mr. DONOVAN. The FCC is in the process of implementing some 
changes there that are actually estimated to save about $2 
billion off the cost. And that is real money that can then be 
put back into the networks to further expand it. For smaller 
firms doing this, that cost of the delay and additional fees is 
even more dramatic as you are operating on a much tighter 
margin with fewer resources to be able to put into play.
    Ms. DAVIS. and then earlier you were talking about 
increasing accountability for purposes of--I believe you were 
talking about for purposes of what is the actual coverage and 
that it would be great for Congress to have reliable maps. Can 
you expand on that a little bit?
    Mr. DONOVAN. Happily. So, the FCC that collects data for 
particularly, for the Mobility Fund, they set standards looking 
at if there is an 80 percent likelihood that you will have 
signal at a certain loading factor, the certain number of 
people using that tower. If you can tighten that up, include 
signal strength, then you have a more direct idea of where you 
actually have coverage without having to then have people go 
out and test it. We learned through that process, there is a 
challenge process off that initial map. And after reviewing 
over 20 million data points that did not even come close to 
touching as much of the country that needed to be checked, the 
FCC found significant flaws. So they are currently 
investigating that and we want to give them credit for that.
    But as we look at future data collections, if we can have 
parameters that more accurately reflect what you experience on 
the ground, we will be starting off with a better map.
    Ms. DAVIS. Okay. And then last thing. And I was hoping to 
ask more questions but 5 minutes is so short.
    What does accountability look like? What do you think 
accountability? What should be the consequence?
    Mr. DONOVAN. So the consequence should be going back and--
making a measurement one time does not need to be the last 
time. We should keep going until we have it right. What is the 
right map? It is what you know from traveling in your district 
and knowing where your dead zones are. And making sure that the 
data reflects that so we can set policies to fix that problem.
    Chairwoman VELAZQUEZ. The gentlelady's time has expired, 
and she yields back.
    And now we recognize the gentleman from Oklahoma, Mr. Hern 
for 5 minutes.
    Mr. HERN. I appreciate it very much. Thanks for the 
witnesses for being here today.
    As an engineer, lifelong business man, and spending 5 years 
on the Oklahoma Turn pike Authority as the Finance Committee 
Chair, I certainly understand how vital infrastructure is to 
small businesses and the necessary burdens that are put on by 
the government to achieve the infrastructure repairs that we 
needed to do and the costs associated with those.
    Ms. Bougher, I am going to get right to the questions here 
because I think you, you know, dealing with infrastructure and 
contracting with them, you certainly understand those. Could 
you help us understand what public-private partnerships, how 
those look and what are your thoughts on those as a person 
dealing directly with the infrastructure?
    Ms. BOUGHER. Sure, actually, thank you for asking that 
question.
    We just recently completed--I do not know if you are 
familiar with the P3 Bridge replacement program in 
Pennsylvania. Pennsylvania used a P3, a public-private 
partnership to complete about 556 bridges and that is in 
response to the deficient bridges, the number of deficient 
bridges in the state, and is an effort to move that needle at 
the right level. And we just completed the NEPA clearance for 
$459 of those bridges in 15 months. And so talk about the 
challenges with the P3 process. It is a funding alternative. 
But there needs to be better communication. From my experience, 
much better communication between the concessionaires, the 
contractors and the engineers. And so it is a big team effort. 
Usually these projects tend to be really timely, with very 
tight deadlines. And without that communication it could be 
challenging.
    I guess another example is the Turnpike Commission in 
Pennsylvania just asked us to do a clearance, environmental 
clearance for 270 miles, and this is related to what Mr. 
Donovan is also talking about because they are looking to use 
the existing right-of-way of the Pennsylvania Turnpike to 
provide broadband access. They are also planning on that 
through a P3. And I recently heard that it looks like it is 
going to be more design build. But regardless, it is, again, 
going back to looking at what makes more sense to do as a 
public-private partnership and what benefits both parties will 
get out of that partnership, which is not always even. And so I 
think there is some work that needs to be done there but that 
would be my response.
    Mr. HERN. Fair enough. And just to continue with this 
conversation, as that being a possibility of how to fund our 
infrastructure in the future, obviously, the private part has 
an interest how they get repaid. They are ROI on their 
investment which is much different than the public side.
    So keeping that thought, what do you see, as we know, the 
Highway Trust Fund is basically front-end loaded until the end 
of this year and then we have a problem with funding that going 
forward. What do you see as some viable, maybe the most 
effective and efficient ways? I am familiar with the trucking 
industry. Would like to see fuel being charged or upcharged, 
increased across the board. Are there any other ways you see?
    Ms. BOUGHER. I would not give up on the public-private 
partnerships. I actually think that these are fairly new, at 
least to the state of Pennsylvania and Maryland in my 
experience. I think that we can still do a lot with that type 
of agreement, with that type of partnership. So I would not 
necessarily give up on the P3s. And I do think that alternative 
funding could provide that balance that we need between the 
Federal and state funding and coming from the private sector.
    Having said that, I still think that there are a lot of 
things that we can do internally through the Federal Government 
to----
    Mr. HERN. So if I may, I have got one other question I want 
to ask. And this is to Mr. Knochelmann.
    Since you are a small business owner and have a trucking 
industry, what else do you think we should be working on 
outside of transportation? My point to asking that question of 
Ms. Bougher was to show that we all agree that there is an 
issue. We have got to fix it. What we have a difference on is 
how we are going to pay for it. And that is for RT&I folks to 
figure out but again, it is for us to point that out.
    What do you see quickly as some other opportunities or 
things that this Committee should focus on in helping small 
businesses?
    Mr. KNOCHELMANN. Thank you for the question. I think the 
other idea, and you talked about it, a few members talked about 
it earlier, is innovation. You know, what kind of ideas can be 
aggressively gone after, whether that be with special grants to 
evaluate. How do we become more innovative in how we are moving 
people around our communities and businesses? Does it make it 
more efficient? And can we reduce costs? Whether it be the 
capital cost and/or the overall cost of operation of these, 
whether it be a P3 or otherwise, I think that we have got to be 
more innovative. And I think there is a lot of small businesses 
and a lot of young innovative people in our colleges and in our 
communities who are willing to look at that in aggressive ways.
    Mr. HERN. Thank you.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    And now we recognize the gentleman from Maine, Mr. Golden, 
for 5 minutes.
    Mr. GOLDEN. Thank you, Madam Chair.
    Just kind of following up on that conversation a little 
bit. I have become very familiar with public-private 
partnerships in Maine, and I think it is a new thing in Maine 
as well, ma'am. I served on the Transportation Committee in the 
Maine legislature and I think we get a lot of good, you know, 
we stretch our dollars nicely that way.
    But I do have a concern that I want to keep in mind in this 
Committee about the proposal that has come out of the 
administration for infrastructure. And that is simply to make 
sure that we do not leave some states behind, Maine being one 
of them where we also have a State Highway Fund that is 
underwater. You know, in many ways bonding our way out of it, 
which is almost like swiping a credit card to pay for basic 
maintenance. And it is not a good situation to be in. And when 
I hear that we may have an infrastructure package that 
prioritizes those states that have more private resources, more 
state resources to put up and match, you know, I am fearful, of 
course, that those that just do not have the capital resources 
might get left out. So you know, something that I am going to 
be looking to make sure states like Maine do not get left 
behind.
    On that, earlier we had a hearing where someone said one of 
the most important things we needed to do in an infrastructure 
package was make sure that the money got down to Main Street. 
And I am sure that was a reference to businesses like your own. 
So I just wanted to give you an opportunity to maybe talk a 
little bit about what we can do. I hear a lot of small business 
owners say it is tough for them to get involved with Federal 
projects because it takes so long to actually get the shovels 
in the ground and they just cannot float the upfront costs. So 
if you could maybe just talk a little bit about that. What can 
we do to speed up the process? Because in your testimony you 
hinted at it a little bit.
    Ms. BOUGHER. In my case, with an environmental firm that 
works with environmental permitting all the time, I can tell 
you that there are a lot of things that we can do within that 
process to make it more efficient. Like Mr. Knochelmann 
referred to being more efficient and being more innovative is 
allowing those small businesses to come up with the ideas, and 
they can. They do this work all the time. We work on this. This 
is our bread and butter. And we can suggest ways to make it 
more efficient. And innovative ways that may not be how it has 
been done for the last 50 years, but maybe a better way to do 
it and now a better way that belongs more to the, you know, 
more up to date. And I think our systems in terms of review 
process have been going around for many, many years. And we 
have not really reconsidered whether or not they are still 
necessary and whether or not we require as many days with all 
that we can do online, all that we can do very quickly, we are 
still keeping those same review times that we had back when we 
were using snail mail. And so that may not be necessary any 
more. Just things like that is what I can think off the top of 
my head right now that we can, you know, and small businesses 
can definitely help.
    Mr. GOLDEN. So shorten the period of time for review 
process is something that we should look at as an example.
    Ms. BOUGHER. Yes. Yes.
    Mr. GOLDEN. But when you say getting small businesses more 
involved in the planning of projects, is that an issue with, 
let's say, working with State Departments of Transportation? Is 
that what you are saying? Is it the Federal Government should 
encourage more of a partnership in the planning process?
    Ms. BOUGHER. I think having a seat at the table early on, 
and it is not necessarily that they do not take it into account 
right now, but being able to say, and it is not necessarily so 
much about being a small business that can contribute, but 
being experts in the field. Our business right now is small 
because we are a specialty firm. And what we specialize on is 
environmental permitting and NEPA clearance. So we go out to 
the experts and ask them, how do you think it can be done more 
efficiently? That would be a suggestion.
    Mr. GOLDEN. Thank you.
    Mr. Donovan, I think I have got time for one more exchange 
here.
    Something that happens in Maine a lot, and you talked about 
how coverage is overstated. And I could not agree with you 
more. Many a small town has some broadband running down Main 
Street, and they are doing a good job of rebuilding Main 
Street. They run out of space though and then growth is 
basically stuck. Because when you talk to people they will say, 
yeah, you know, it is nice on the downtown. We have got good 
access to broadband or faster internet, but you get a mile out 
of town and the consumers, their market is in the dark. So I 
just want to give you a chance maybe to talk about what 
Congress can do working with carriers to try and get at that 
problem right there because I do think it is overstated. Maine, 
on the map here, said that only 14 percent are without access 
to broadband. There is no way that is true.
    Mr. DONOVAN. Yeah, thank you, Congressman. For where you 
are locating on Main Street, you know, it is not just location, 
location, location. Now it is location, location, and is there 
broadband, is what businesses are looking at. Or else, you do 
not exist if you do not exist on there. You know, Senator King 
uses the phrase that there is no silver bullet but there is 
silver buckshot for solving this digital divide. So we want to 
embrace in all the above strategy.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    And now we recognize the gentleman from Minnesota, Mr. 
Hagedorn, for 5 minutes.
    Mr. HAGERDON. Thank you, Madam Chair, and Ranking 
Republican. I appreciate that. Witnesses, thanks for your 
testimony.
    One of the most important things that I am trying to help 
accomplish is to sustain agriculture and our rural way of life, 
and a lot of that involves, of course, the success of small 
businesses. And I have come to the conclusion that the best way 
to level the playing field and to do all we can for our small 
businesses is to eliminate bad government at every level of 
government, especially here at the Federal Government. And when 
you look at areas like regulations and taxes, I think 
Obamacare, which has not been good for small business, and 
energy independence, things of that nature, we have got a lot 
of work to do. Trade is another area.
    And I would like to focus in though on transportation. In 
our district, Southern Minnesota, the district goes all the way 
from South Dakota to Wisconsin and then Iowa up about 80 miles. 
There is a main thoroughfare, Highway 14. It is the most 
densely populated, contiguous road without a--that does not 
include four lanes all the way across. And it has quite an 
impact on business and commerce and efficiency. And it all 
relates back to small business in our rural communities.
    I will give you a little story. In the city of New Ulm, a 
beautiful community of about 14,000, it is in Brown County, 
just a wonderful place. 3M is located there. Lots of good 
businesses. But the mayor and some of the Economic Development 
folks told me a story a year or two ago where there was a 
company that was looking to relocate into New Ulm. Going to 
bring in 500 to 1,000 jobs. And the representative of that 
company drove in and looked around and said, is the only way in 
and out of town two lanes? And they said, yeah, unfortunately, 
that is the way it is. And they said, okay, thanks. And they 
got back in their car and left. And so there are 500 or 1,000 
jobs not in that wonderful, vibrant community that could be 
even stronger. And of course, that is a larger business. But 
think of what those folks are going to do if they live there, 
shop there, you know, go to school there, how it helps all 
involved, especially small businesses.
    So I know my friend, Mr. Stauber, Congressman Stauber, is 
on the Committee of Transportation. I am looking to work with 
him and everyone else because there is a project, Highway 14, 
that people, including my father 44 years ago when he arrived 
here, he started working on that and we still have not 
completed it. So I understand exactly how important 
infrastructure of that nature is.
    I would say to our friend, Mr. Donovan, thank you for your 
staff for stopping by our office yesterday. We appreciate what 
you are doing and looking into in the issues.
    Do you have an example or two that you can provide us as to 
how broadband is so critically important for our farmers and 
our small agri businesses in places like southern Minnesota?
    Mr. DONOVAN. Thank you.
    So when we look at farming today, you almost become 
agricultural engineers with the amount of connectivity that 
they depend on. So precision agriculture techniques will allow 
farmers to be more efficient and have more profitable yields 
while using fewer resources. And there has been a lot of talk 
of autonomous vehicles generally as things that 5G will enable. 
And we have had them in rural America for years, they are just 
John Deere green. They are based on following that wireless 
connection in order to power how they are operating.
    Mr. HAGERDON. Thank you. I will give you another example. I 
grew up on a grain and livestock farm. We had hogs, and my 
father would send me out on occasion to feed the hogs, but now 
they can do that all automatic. They sit in a computer room and 
turn the machines on and off and nobody has to even get close 
to the animals in many cases.
    Mr. DONOVAN. I will add on to that, if I may. In addition 
to feeding them, you even have applications that are 
essentially a Fitbit for piglets that can track them and you 
can see where the animals are. And that actually, it helps 
prevent instances where the pigs get smothered while they are 
getting fed and in other instances, you can track the vitals. 
It is pretty incredible what you can do with these connections.
    Mr. HAGERDON. Very good.
    Very quickly, Ms. Williams, I would ask you a quick 
question, your analysis. Do you support the Small Business 
Runway Extension Act of 2018, which affects small businesses 
and their qualifications during the procurement process? What 
is your opinion of that legislation?
    Ms. WILLIAMS. Thanks for asking.
    I would have to say I am not familiar with it. I have not 
read that piece of legislation.
    Mr. HAGERDON. It is a relatively new bill and I am sorry if 
I caught you off guard. But maybe you can submit something for 
the record and respond to us down the road.
    Ms. WILLIAMS. I would be glad to do that.
    Mr. HAGERDON. With that I yield back. Thank you.
    Chairwoman VELAZQUEZ. The gentleman yields back. And now we 
recognize the gentleman from Texas, Mr. Veasey, for 5 minutes.
    Mr. VEASEY. Thank you, Madam Chair.
    You know, as we talk about expanding our broadband and 
moving it out to rural America, one area that I am concerned, 
and I am fully supportive of that. I think it is very important 
that we expand our broadband. One area that I think that we 
need to address now before we start any large expansive 
movement of that is when those contracting opportunities take 
place to help build out that broadband, that black-owned, 
woman-owned, minority-owned firms are a part of that work that 
actually takes place. I think that is critically important on 
everything that we do for that matter, whether it is expanding 
our green infrastructure or any of those things that we talk 
about that are on the horizon for helping create a better 
America.
    And so with that I wanted to ask Ms. Williams, because I 
know that you have some background in helping out small 
businesses, as it relates to expanding contracting 
opportunities for small businesses, can you speak on how 
retainage and prompt pay affects the growth of small businesses 
and contractors, specifically when they are trying to be able 
to have enough capital to be able to work on various projects, 
different projects if their money is being held up?
    Ms. WILLIAMS. Thank you for that question. Great question.
    We have dealt, in my 30 years of experience in dealing with 
small businesses, not only through this program but at the 
local level as well, all of those issues have been significant 
to small business growth. On local projects retainage has 
definitely been an issue. Not only that but bonding continues 
to be an issue, as well as prompt payment. That also relates to 
access to capital. That is one of the reasons why they need 
significant access to capital is to be able to cover some of 
those expenses while they are waiting for payment. With Federal 
Government contracting prompt payment continues to be an issue. 
We continue to see business after business come to us for 
assistance to find out where they can gain more access. Some of 
them tend to go to organizations where they submit their 
contract or borrow on their contract while they are waiting to 
get paid. So that continues to be an issue. We continue to look 
for resources to help them. Some local governments have 
provisions in place to speed up that prompt payment process but 
we have not heard anything as far as expediting that at the 
Federal level.
    Mr. VEASEY. I know a local contractor in the Dallas-Fort 
Worth area that told me that they were owed about $600,000 on a 
project that they were working on and literally did not get it 
for almost 9 months. And for a lot of small businesses, 
particularly smaller, you know, black-owned companies, 
Hispanic-owned companies, that could be really a death blow.
    What other challenges out there do small businesses face? 
Again, particularly, you know, small minority-owned businesses 
face when working with the Federal Government on bids and 
projects?
    Ms. WILLIAMS. Navigating through the system is a huge 
challenge. Again, a lot of them try to do it on their own 
before coming to resource providers. Having proper paperwork in 
place. Having their business structures in place. So those 
areas continue to be an issue. Once they get those in place, 
then they can focus on actually providing the service. But 
navigating through the system continues to be an issue.
    Mr. VEASEY. Madam Chair, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    And now we recognize the gentleman from Minnesota, Mr. 
Stauber, for 5 minutes.
    Mr. STAUBER. Thank you, Madam Chair. And thank you, 
witnesses, for coming. Your testimony is enlightening because 
we are talking about small businesses owners. I am a small 
business owner and have been for 28 years. We know, and the 
four of you know that small businesses are the engine of our 
economy.
    A couple of questions. Ms. Williams, you talked about, the 
question was, what is the biggest challenge for small business? 
And you talked about navigating the system. I would encourage 
you because you are the expert, to help us incorporate some of 
those suggestions from the small businesses so it can be easier 
because, I mean, I am sure all of you understand that small 
businesses, we are assets to the Federal Government in repair, 
fixing their assets, and what have you. And so I would 
encourage you to bring those forward. From your 30 years of 
experience, Ms. Williams, you can bring a wealth of expertise 
to that in the procurement process because that is going to 
continue to expand our small businesses. That would be my 
request of you because of your expertise. And you know, when we 
talk about my good colleague from Maine talks about expanding 
broadband in the rural areas, I could not agree with him more. 
My area is rural northern Minnesota, a beautiful place to live, 
but they are not expanding because as you talked about, 
location, location, location, broadband. That is an important 
piece of the infrastructure.
    Ms. Williams, your testimony, you concentrated in three 
areas of deploying broadand--avaiability, affordability, and 
adoption. Which of these do you think is the biggest challenge 
for small businesses?
    Mr. WILLIAMS. Thank you so much. And I definitely will 
follow up with how we can help small businesses navigate 
through that.
    As far as broadband, affordability. Well, let me retract a 
little bit. I think accessibility is number one. Affordability, 
of course, definitely is number two. And I say accessibility 
because there is a lot of, speaking from a Texas viewpoint, 
there are a lot of areas in south Texas where just 
municipalities, the small municipalities are longing for access 
to high speed broadband.
    We have an event called the Texas Rural Challenge where we 
meet with those municipalities and we have directly heard that 
from them. So if the municipalities are having issues, the 
small businesses also in turn are having issues just accessing 
it in their area. There are pockets where you just cannot get 
any cell phone service, let alone broadband service. So I would 
say the number one issue is accessibility.
    Mr. STAUBER. Thank you.
    And then my next question would be I guess to the entire 
group. I am on the Transportation and Infrastructure Committee. 
And when we have to build, rebuild American roads and what have 
you, I would challenge us as supporters of small business, to 
understand the importance of road access into our small 
businesses, and also to make sure that our State Department of 
Transportations understand when they rebuild or reroute that 
small businesses have a voice in that. And I would encourage us 
to get into, look at those projects that hopefully will be 
appropriating very soon, but that small businesses have a voice 
in the access roads, the frontage roads, whether they are going 
to bypass or not, but have that local input. And you folks are 
the experts to do it and help us move forward.
    I have one other question to Mr. Knochelmann. As a small 
business owner yourself, what areas do you think this Committee 
should focus on in addition to infrastructure to help us 
flourish, help small businesses flourish?
    Mr. KNOCHELMANN. Well, it is a great question, Congressman. 
I think that it all comes down to education and whether or not 
we--I think about the small business. I happen to have an 
accounting degree, so I think that it was very beneficial for 
me to go right into the plumbing/heating business. Even though 
I do not install water heaters personally, I have people who do 
that. Education. You know, so you do not need a 4-year-degree 
to know how to be an entrepreneur. You do not need a 4-year 
degree to be a good business person. But I think the 
communities need access to those business ideas. And whether or 
not we encourage the education system to include it at a high 
school level, after high school, as well as having the region, 
the ability for people to come and get their quick answers, how 
do you start and grow your small business? That is a huge 
issue, and it is not very expensive.
    Mr. STAUBER. I appreciate that answer. That was music to my 
ears.
    Madam Chair, I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    And now I am going to recognize myself for 5 minutes as we 
go into a second round.
    And to follow the line of questioning of the gentleman that 
just was asking the questions, I would like to raise--so 
imagine for a second here that we are going to enact 
legislation, an infrastructure bill. It sounds like there is 
bipartisan desire to enact such legislation. The question is, 
how are we going to pay for it? I am optimistic when I hear Mr. 
Knochelmann say that a gas tax, and many people are proposing 
such a tax increase to be able to finance it. But let's say for 
a moment that there is bipartisan support that we enact the 
legislation.
    Ms. Bougher, you mentioned how a shortage of skilled 
workers constrain the ability of small businesses to expand 
operations. What would you say, Mr. Donovan, Mr. Knochelmann, 
and Ms. Bougher, how can it work? Talk to us about the 
workforce challenges that you will face if such legislation is 
enacted.
    Mr. Donovan?
    Mr. DONOVAN. Thank you. We encourage your efforts to enact 
legislation and stand ready to assist in that. On the workforce 
piece, there was bipartisan legislation last Congress we would 
like to see come back looking at, particularly in the 
telecommunications world, at tower climbing and other tower 
engineering jobs-on bringing that more into community colleges 
and into local communities, so that you can start using 
additional resources to make sure that the people have the 
skills to work on broadband deployment to accomplish the goals 
that you will have in the infrastructure bill.
    Chairwoman VELAZQUEZ. Ms. Bougher?
    Ms. BOUGHER. So I have a short-term and a long-term answer 
to that question. The short-term, it is the lack of engineers. 
We would have to go back to high school. We would have to 
convince these kids to go to engineering school. And that is 
something that is going to take time. So in the short-term, I 
would think a cross-training program where engineers that may 
not be as familiar with the different areas of, you know, there 
is a structural engineer. There are very specific fields within 
the engineering field that we can help cross-train now, start 
that process now, especially with our entry level engineers so 
we can have a more diverse set of talents within the same 
engineer. That, in my opinion, would be a short-term, we can 
work on it now solution. But the long-term and most sustainable 
solution would have to be going to workforce development that 
starts at the--I would even say at the middle school level, not 
just at the college level. I think in college we are a little 
too late. So I would say we would have to--that K-12 is 
important.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Knochelmann?
    Mr. KNOCHELMANN. Thank you. And I would agree with 
everything that has been stated on that. And I think another 
area, and you see a shift in the culture, I think, of a 
discussion about that not everyone also needs to have a 4-year 
degree and take on a lot of debt to be able to be successful in 
the workforce environment. I think that is very healthy. We 
need to encourage that.
    We have been drawing in our business, we have been drawing 
in a lot of individuals who are both college educated and not 
in the service industry. So we have been going to all fields, 
including encourage co-oping from high schools, seniors who 
come in and work half a day paid. And be able to feel the 
industry out to know whether or not they are going to be able 
to do that. But I also think it is a reality that the public is 
also willing to pay for infrastructure, too, because 
ultimately, as much as I would like to think that it all comes 
out of my pocket, ultimately I have to pass those costs on to 
consumers. I think they are willing to pay for good services 
and good roads and infrastructure.
    Chairwoman VELAZQUEZ. Thank you.
    I yield back the balance of my time.
    I would like to recognize the gentleman from Pennsylvania, 
Mr. Joyce, for 5 minutes.
    Mr. JOYCE. I thank the Chairwoman for yielding.
    My question is for Mr. Donovan. What can we do to 
incentivize better relationships between providers and state, 
city, and local governments who have experienced limited 
coverage? I am from rural south central Pennsylvania, and many 
of these municipalities are hesitant to share the control with 
any other existing infrastructure.
    Mr. DONOVAN. Thank you for the question.
    I think part of the discussion today is we have bipartisan 
agreement that access to broadband is an economic multiplier 
and a must-have for the 21st century. As we look at the 
permitting process, the application, rights-of-way, it is 
looking at it as a partnership that is a win-win. It is an 
investment in the local community, and maybe looking a little 
less that it being a one-time, revenue generator off of 
different fees and different access, and instead taking a step 
back and looking at all the revenue that will come to that area 
because the investment is flowing in there. The investment, the 
wireless carriers are continuing to work to expand networks, 
and more of that attention is going to go where they are able 
to have a municipality that can work with them to try and find 
some creative solutions, particularly for the small carriers 
that I represent. They also live in these communities. And if 
they do not do something right by their community, they are 
going to hear about it. They are serving on local boards, so I 
think they might be some of the model on how you can work to 
improve these relationships to make sure we can get to that 
goal of expanded service.
    Mr. JOYCE. Do you see a role in incentivizing these 
entities to work together?
    Mr. DONOVAN. Absolutely. And again, any incentives you can 
have to spur additional deployment are great. And we have seen 
that already in some states that have eased restrictions on 
small cells, are some of the first 5G cities. So how we look at 
those incentives to make sure that carriers can work with the 
municipalities to make sure we expand service.
    Mr. JOYCE. Thank you for your concise answer.
    I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    And now we recognize the gentleman from Maine, Mr. Golden, 
for 5 minutes.
    Mr. GOLDEN. Thank you, ma'am.
    Not to pick on you, Mr. Donovan, but we will just keep 
going with this one. And I look forward to working with my 
colleagues on some of the regulatory stuff that might help in 
rural areas. I think that has been a good conversation.
    I just wanted to ask, you know, getting back, I love your 
response about the buckshot, by the way. It sounds very much 
like Senator King. And as a Mainer, I understand the reference.
    But do you foresee a time where carriers that you represent 
and others are going to see that it is a good investment for 
them to expand significantly without public assistance? Or are 
we just going to--consumers are, I think, are going to have to 
either accept that they are not going to have it or are we 
going to have to do some kind of Federal investment in the 
infrastructure or public partnerships? I mean, in the state of 
Maine, they have looked at doing bonds related to this to lay 
down the infrastructure so that carriers can then provide the 
service. But do we realistically think that carriers will ever 
see a financial incentive to do this without public investment?
    Mr. DONOVAN. Congressman, thank you.
    Yes, we do. That is part of the exciting part of 5G 
deployment, is that in many ways it is going to affect 
everything other than your phone first. Yes, you will have 
faster speeds and greater access, but the connections that it 
will enable, can set up a river of pennies where you may not 
have as many data plans sold to people but you have additional 
sensors and other data plans that ride on that, you know, 
powered through 5G networks or some of the precursors like 
narrowband internet of things networks.
    As one example, we represent a carrier that serves rural 
Wyoming, and they have a massive footprint but less than 
100,000 subscribers. Talking with them, they say they have 
identified another 5 million subscribers. The difference is 
that 3 million of them are cows and 2 million are sheep. So how 
can you get those connected as well? And once you build that 
network, and we may need some additional support to get the 
networks built, but then can you use that river of pennies 
approach to have many different streams that can help build a 
sustainable business case.
    Mr. GOLDEN. So, what you are basically saying is if we do 
nothing your belief is carriers are going to bring 5G access 
out to rural America by themselves?
    Mr. DONOVAN. Parts will. I think if we do nothing then, we 
are on the wrong side of the digital divide right now and we 
need to build that bridge. Once we get there then they can 
sustain the businesses, but we do need additional support in 
order to get that initial build out.
    Mr. GOLDEN. Gotcha. The infrastructure part?
    Mr. DONOVAN. That is correct.
    Mr. GOLDEN. All right. Thank you.
    Ms. Williams, just really quickly. You talked earlier about 
how some small businesses are going out and getting some people 
to come in and advise them how to do, you know, get in on 
Federal contracting and other things, and that is essentially 
what the PTAC is for. And I have seen this firsthand where we 
had a PTAC in Bangor, Maine, and 30 miles down the road a small 
business that was paying some advisor consultant to come in 
from as far away as Boston on how they could get involved with 
pursuing some contracting opportunities relevant to their 
shipbuilding. I mean, obviously, the contractor, you know, the 
advisor is putting money into getting word out there and 
pursuing clients. What is it going to take for PTACs to compete 
against that? I mean, what are you lacking in terms of getting 
the word out about the services that you offer and then getting 
in touch with those businesses? Because I cannot help but feel 
like in the case I just described they would love to have a 
supported service through PTAC rather than paying some 
expensive consultant out of Boston.
    Ms. WILLIAMS. Right. You are absolutely right. We come into 
scenarios every day where businesses want to get on the GSA 
schedule, General Services Administration. They have already 
paid a consultant $9,000 and still did not get on the schedule. 
They will come to a PTAC and get on the schedule in a matter of 
2 months.
    I think one of the things that is lacking is advertisement. 
As you mentioned, a lot of the consultants put money into 
advertising and the way they advertise it makes it seem that 
they are federally connected. I came across one that actually 
used federal logos without permission. But because a lot of the 
funds that we get have to be put into services instead of 
advertising, then that is where we cannot compete with private 
consultants.
    Mr. GOLDEN. Thank you. That is very helpful.
    I yield back my time.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    And now we recognize the Ranking Member for 5 minutes, Mr. 
Chabot.
    Mr. CHABOT. Thank you, Madam Chair. And I think I am the 
last questioner if I am not mistaken here, so I am the only one 
that is standing between the folks in this room and lunch. So I 
will be brief.
    So I will go to the Brent Spence Bridge and Judge 
Knochelmann.
    When we had Elaine Chao, the head of Transportation 
Department in Cincinnati, we had a hearing with the local 
chamber folks from Kentucky and Ohio and we talked about 
principally the Brent Spence Bridge, but also the Western Hills 
Viaduct, which is another infrastructure project we are working 
on in our area. And she mentioned something that Ms. Bougher 
talked about here for a while, and that was public-private 
partnerships. With respect to local, especially the Brent 
Spence Bridge, do you have any thoughts on that area where that 
might come into play on those two particular projects, either 
one or both?
    Mr. KNOCHELMANN. Sure. Well, I think that it has been 
proven that P3s can be done well and they can be done extremely 
poorly. And it seems as though that I think that is going to 
have to be something that is on the table for both the projects 
that you referred to. And I know that Governor Bevin has said 
the same thing, that they have to be talked about. We have got 
some issues as you are probably aware of in Kentucky with some 
legislation that local, or state legislation that has been 
problematic on the Brent Spence project.
    But in terms of, I think what I have seen from the outside 
and all the reading that I have done and the advocates and 
opponents of it realize that the sophistication on the capital 
side has got to be balanced so that you do not have the state 
in a situation, either state in a situation where the liability 
is there and the private sector has no liability. Or that the 
freedom by which they are able to set rates, et cetera, really 
damage the state financial situation. So I think that it is 
about balance. It is about accountability. It is about real 
return and making sure that no one is too--the risk side of it 
is balanced with the capital investment. And I think that we 
have got to have it on the table.
    Mr. CHABOT. Thank you. And then finally, you mentioned a 
potential gas tax. The Chair did as well, and I would be remiss 
if I did not mention that a former member of the House, a 
former United States senator is now our new governor in Ohio, 
and that is Mike DeWine, and he has brought that up, that 
issue, controversial, but he has brought it up and put it on 
the table. We do not know what the legislature will do with it. 
That is in Columbus. But he has, at least it is out there and 
we will see where that goes. But sort of related to that in 
some ways, and I had mentioned this relative to the Brent 
Spence Bridge, that we do have this project of national and 
regional significance that is waiting there but it is waiting 
for the local folks to determine how they are going to pay for 
the local share. And maybe that is part of it, and I know that 
our new Governor DeWine and Governor Bevin from Kentucky are 
going to be talking about funding for this major project.
    Do you have any thoughts on the local funding aspects of 
the Brent Spence Bridge? What you are hearing now or what you 
think about that however you would like to comment?
    Mr. DONOVAN. Sure. And I think the big discussion has been 
about tolls for us, as you know, in the region. And I think 
whether or not that is a contribution from the state, or the 
state has to set that financing model up. While no one likes to 
pay it, I can speak only as a business owner and not as my 
elected official position because I can only speak for myself. 
I think those, again, are costs that have to be balanced out. 
And if it is reasonable, I think we are very willing to pay 
those kind of contributions that are made on the local level to 
get those projects done.
    And I will tell you from the community in general, I have 
sensed a willingness to be willing to step up to the plate and 
play a part in that in making sure that local dollars are 
invested in those kind of projects. So I think that the 
movement, we just have to kind of, now that there has been a 
ground swell of support for saying we know we have a major 
problem. It is going to take dollars. You all do not have 
magical checkbooks to write on any project around the country, 
that we are all going to have to be reasonable about the fact 
we are going to have to step up to the table and make some 
investments. And I think there is a willingness to do that. I 
really do.
    Mr. CHABOT. Thank you very much.
    I would like to compliment the panel for I think excellent 
testimony. I want to compliment you, Madam Chair. This was a 
very good hearing. Thank you for pulling it together. And I 
yield back.
    Chairwoman VELAZQUEZ. And now you are on the record 
supporting a tax increase.
    Mr. CHABOT. I have to correct the record. I am not on the 
record doing that.
    Chairwoman VELAZQUEZ. I echo the Ranking Member's statement 
regarding your participation, it is very enlightening and we 
really thank you because we know that you are all very busy 
people and you are here today. It is very important for this 
committee.
    Ensuring small firms can participate in the federal 
marketplace and win a greater share of federal work is always 
top of mind. And as we have heard today, investment in our 
crumbling infrastructure is a great opportunity to help small 
businesses grow in every corner of our country. As we discuss 
any future infrastructure investments, it is critical that we 
listen to and prioritize small business needs to ensure their 
future success.
    I ask unanimous consent that members have 5 legislative 
days to submit statements and supporting materials for the 
record.
    Without objection, so ordered.
    And if there is no further business to come before the 
committee, we are adjourned. Thank you.
    [Whereupon, at 12:39 p.m., the Committee was adjourned.]
                           
                           
                           A P P E N D I X

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
